WAIVER

SUPREME COURT OF THE UNITED STATES

Machievelli F. Siberius American Public University System, Inc.

|
|

(Petitioner) v. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© [am filing this waiver on behalf of all respondents,

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Pressley Ridge

Please check the appropriate box:

© __ | ama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System, The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, Washington, D.C. 20543).

    

 

 

Signature:

Date:

centre yw
© wr. © Ms. © Mrs, O Miss

Firm Zimmer Kunz, PLLC

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form, No additional certificate of service or cover letter is required.

Machiavelli F. Siberius
cc: Allison B, Williams, Esquire and Larry J. Rector, Esquire

J. Victor Flanagan, Esquire and Katie L. Hicklin Luyster, Esquire

 
